!i

No.

IN THE
SUPREME COURT OF THE UNITED STATES

GLENN YOUNG — PETITIONER
vs.

DARREL VANNOY, WARDEN — RESPONDENT(S)
PROOF OF SERVICE
I, GLENN YOUNG, do swear or declare that on this date, July 28,
2020, as required by Supreme Court Rule 29 I have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERS and
PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other person required to be
served, by depositing and envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class
postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.
The names and addresses of those served are as follows:
James E. Stewart Sr. District Attorney
Attention: Appeals Division
501 Texas Street Fifth Floor
Shreveport, LA 71101-5408
I declare under penalty of perjury that the foregoing is true and correct .
Executed on BapL 11,2020
(Signature
7A

i

